<html>
<title> - U.S. INTERESTS IN AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                        U.S. INTERESTS IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2017

                               __________

                           Serial No. 115-33

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-458PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 




























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General William E. Ward, USA, Retired, president and chief 
  operating officer, SENTEL Corporation (former Commander, U.S. 
  Africa Command)................................................     4
Mr. Bryan Christy, explorer and investigative reporter, National 
  Geographic Society.............................................    10
Mr. Anthony Carroll, adjunct professor, School of Advanced 
  International Studies, Johns Hopkins University................    20
The Honorable Reuben E. Brigety II, dean, Elliott School of 
  International Affairs, The George Washington University (former 
  U.S. Representative to the African Union, U.S. Department of 
  State).........................................................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General William E. Ward, USA, Retired: Prepared statement........     6
Mr. Bryan Christy: Prepared statement............................    12
Mr. Anthony Carroll: Prepared statement..........................    23
The Honorable Reuben E. Brigety II: Prepared statement...........    31

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Daniel Donovan, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    83
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    85

 
                        U.S. INTERESTS IN AFRICA

                              ----------                              


                         THURSDAY, MAY 18, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order if all of 
the members will take their seats. Today we are going to focus 
on U.S. interests on the continent of Africa. As members know, 
this committee has been in the lead of U.S.-Africa policy for 
many, many years. Last Congress was no different, with several 
laws passed, and I will just remind the members we passed: The 
Electrify Africa Act, which will bolster power in electricity 
projects across the continent, it will spur a lot of economic 
growth.
    We passed the END Wildlife Trafficking Act, which combats 
the threat of illegal poaching and the trafficking of elephants 
and rhinos, and we closed down the ivory trade with this 
legislation. The profits here were linked to extremist groups 
which was another important point.
    The Global Food Security Act improves our ability to 
respond to food emergencies, and we also successfully 
reauthorized the African Growth and Opportunity Act to expand 
opportunities for increased trade and investment.
    Not too long ago, the committee fought to establish 
landmark programs like PEPFAR and the Millennium Challenge 
Corporation. As this work was done in a bipartisan way over the 
last few years, we operate the same way today. I would like to 
thank Ranking Member Engel, Chairman Smith, and Ranking Member 
Bass for their leadership on these issues.
    Africa has 1 billion consumers. That is one way to look at 
it, 1 billion consumers. It has a huge potential as a trading 
partner and as a U.S. job creator. Some of the fastest growing 
economies in the world are in Africa, including six of the top 
13 countries that grew the fastest over the last 3 years. This 
makes our economic engagement on the continent critical. But 
according to a recent news report, Chinese engagement with the 
continent ``may be the largest global trade and investment 
spree in history.''<greek-l>, end quote. deg. Simply put: The 
U.S. cannot get caught watching from the sidelines here.
    Our efforts to combat Islamist extremism is not confined to 
the Middle East. ISIS affiliates and Al Shabaab in Somalia, 
Boko Haram in northern Nigeria, and the al-Qaeda affiliate 
throughout the Maghreb have to be addressed head-on through 
counterterrorism initiatives in support for our partners in 
Africa. One witness today will tell us about his exploits 
fighting wildlife traffickers, and many of these wildlife 
traffickers today are linked to terrorists. Efforts to 
strengthen democratic institutions and government capabilities 
must go hand-in-hand with our efforts to address these 
challenges. Unfortunately, tragically, too many African 
countries are off the democratic track.
    Critical situations require immediate leadership and 
direction from the U.S. Government. With three famines looming 
on the continent, deliberate deprivation of humanitarian aid by 
South Sudan's political leaders, and ongoing political 
instability in the Democratic Republic of the Congo, the U.S. 
must remain active and remain engaged. And I want to thank 
again those members that are traveling to the region in the 
next few weeks addressing these issues.
    I am pleased also by last week's nomination of Ambassador 
Mark Green to lead USAID. We look forward to working with this 
former committee member to continue to provide communities with 
lifesaving aid from the American people. AID also helps open 
African markets to sell U.S. goods and services. However, I am 
concerned by the delay in appointing an Assistant Secretary for 
Africa at the State Department, and the Department needs to 
demonstrate how the administration's proposed budgets don't put 
the progress we have made in jeopardy.
    As we will hear today, our engagement with Africa is in the 
strategic interest of the U.S. not only to address urgent 
humanitarian needs there in Africa across the continent, but 
also to advance our critical economic interests, our political 
interests, our security interests. Now is not the time to pull 
back. And so I will now go to our ranking member, Mr. Engel of 
New York.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for convening 
this hearing. And to our witnesses welcome to the Foreign 
Affairs Committee. We are grateful for your time and for your 
expertise.
    The region that we are focused on today, sub-Saharan 
Africa, holds tremendous importance for the United States and 
for other emerging global powers. If we don't give Africa the 
focus it deserves those strategic opportunities will slip away 
at great cost to the United States and I believe to countries 
across the continent.
    In recent years, American policy has played a major role in 
driving political, economic, and security progress in sub-
Saharan Africa. For the most part, these policies have won 
strong bipartisan support. They have also shown good results. 
Working together we have helped to promote economic opportunity 
through the African Growth and Opportunity Act, what we call 
AGOA, and the Electrify Africa Act.
    We have improved access to lifesaving health care through 
the President's Emergency Plan for AIDS Relief, PEPFAR, and 
through the American response to the Ebola crisis in West 
Africa in 2014. And we have worked to tackle the problem of 
wildlife trafficking, which is tied to so many other criminal 
activities, through the END Wildlife Trafficking Act.
    These initiatives are great examples of how doing good for 
other people also does good for America's interests. If we can 
help provide access to reliable power or health care we should. 
It is the right thing to do. At the same time we make these 
investments we are helping communities and countries become 
more stable and more prosperous. It adds up over time and we 
end up with stronger partners on the world stage and 
populations who view the United States as a friend.
    But these efforts, as worthwhile as they are, haven't made 
a dent in other challenges facing many African countries. For 
example, conflict and climate change have given rise to massive 
humanitarian crises including an ongoing famine in South Sudan 
and the risk of famine in Somalia and northeastern Nigeria. The 
victories we have achieved are fragile and a lot of work 
remains to meet remaining challenges.
    So I am worried that after robust engagement during both 
the Bush and Obama administrations, United States' policy 
toward Africa has suddenly gone adrift. Part of this is due to 
some diplomatic missteps. In April, Secretary Tillerson invited 
the chair of the African Union Commission to meet in 
Washington, then at the last minute canceled the meeting.
    In March, the African Global Economic and Development 
Summit took place in California. Not a single citizen of an 
African country was granted a visa by the State Department to 
attend this event. I have to ask, would the Secretary of State 
brush off the European foreign policy chief? When we hosted the 
APEC Summit in 2011, how many citizens of Asian countries did 
we turn away?
    Mistakes like this send an unfortunate message. What sends 
an even clearer message and will do real harm to people across 
Africa is the administration's proposed international affairs 
budget cut. If we cut by nearly a third our investment in 
diplomacy and development, we put at risk all the work we have 
done to foster good governance, economic growth, and 
counterterrorism efforts.
    And I am happy and I am pleased to say that when we held 
hearings in this committee, people on both sides of the aisle 
spoke out against these horrific budget cuts. Cutting USAID 
initiatives and support for U.N. organizations will put lives 
at risk. The appalling reinstatement and expansion of the 
Global Gag Rule will have an outsized impact on African 
countries, cutting off vulnerable communities, especially women 
and girls, from needed health care.
    Scaling back the Peace Corps will undermine one of our most 
cost effective tools of providing assistance in building 
relationships with other cultures. And expanding the American 
military engagement on the continent just doesn't make sense if 
we are not also working on a parallel track to address the 
drivers of political instability.
    The good news is that Congress decides how much we invest 
in foreign affairs and where we put that money to use. We have 
the power of the purse. So I am confident as we move forward we 
will continue to give our initiatives in Africa the resources 
they need and that we will do more to address the range of 
unmet challenges.
    I look forward to hearing from our witnesses about the best 
way forward on these issues. I again thank Chairman Royce and 
Ms. Bass for all her work on this and I yield back.
    Chairman Royce. Thank you, Mr. Engel. This morning we are 
pleased to be joined by a very distinguished panel. General Kip 
Ward served as the first commander of the U.S. Africa Command 
Forces. He served there from 2007 to 2011.
    We have Mr. Bryan Christy, an investigative journalist from 
the National Geographic, specializing in wildlife trafficking 
and the ivory trade and in conservation.
    We have Mr. Tony Carroll, adjunct professor at the Johns 
Hopkins School of Advanced International Studies. He served on 
the Africa advisory board at the EXIM Bank, the Overseas 
Private Investment Corporation, and the Millennium Challenge 
Corporation, and he got his start as a Peace Corps volunteer in 
sub-Saharan Africa.
    Ambassador Reuben Brigety served as the U.S. representative 
to the African Union. The Ambassador also served as a Deputy 
Assistant Secretary of State in the Bureau of African Affairs.
    And without objection, the witnesses' full prepared 
statements will be made part of the record, here, and members 
are going to have 5 calendar days to submit any statements or 
any questions that they might have for the witnesses or any 
extraneous material into the record.
    We will start with General Ward and we will ask all of you, 
if you could, to summarize your remarks. General Ward, please.

 STATEMENT OF GENERAL WILLIAM E. WARD, USA, RETIRED, PRESIDENT 
    AND CHIEF OPERATING OFFICER, SENTEL CORPORATION (FORMER 
                COMMANDER, U.S. AFRICA COMMAND)

    General Ward. Mr. Chairman, Ranking Member, and members of 
the committee, thank you for the opportunity to provide 
testimony on the important nexus between security and 
development on the African continent and how interconnected 
they are from a philosophical standpoint, but also 
operationally between the Department of Defense and USAID in 
particular but other U.S. Government agencies that promote 
development and good governance.
    Proudly wearing the cloth of our nation, I was privileged 
to be the inaugural commander of the United States Africa 
Command, and having previously served in the Balkans as the 
commander of the NATO Force in Bosnia and Herzegovina and in 
the Middle East as a U.S. security coordinator for Israel and 
Palestinian authority. In each of these three critical environs 
I was able to witness firsthand that American security is well 
served when nations take and are supported in taking positive 
steps to advance their economic sector to better serve their 
populations and inroads are made such that governance issues 
are advanced in service to their people.
    I have submitted a written statement and in it I describe 
this notion of creating societal stability by providing a 
horizon of hope. When this happens, fragile societies are less 
susceptible to the conditions that foster instability and 
reduce the prevalence of failing or fragile state scenarios 
easily exploited by terrorists, criminals, and other negative 
actors.
    When the United States provides developmental support to 
fragile states, our national security interests are served and 
our national security is enhanced. Development is the long term 
guarantor of stability. No amount of bullets or bombs can do 
that. As was the case for post conflict Europe and Asia where 
the United States made strategic developmental investments, 
this is no less true for Africa.
    The African continent is three and a half times the size of 
the continental United States with vast resources, markets, and 
agricultural potential. Population growth in Africa exceeds 
that occurring anywhere else on the globe. Burgeoning youth 
populations, huge potential for a rising middle class, and its 
demands for goods and services reinforce the importance of 
programs that advance health, literacy, and access to a better 
life, lest these populations create burdens on other regions of 
the global commons and, as importantly, create safe havens for 
the export of terrorism and illegal activities requiring huge 
resources to counter. Preventing this from occurring is a far 
better and much less costly alternative than having to react to 
the negative impact of these ills.
    Our national support to these vital developmental projects 
and programs led by the United States Agency for International 
Development and other developmental entities are modest 
investments proportionately speaking that serve our national 
security interests more efficiently than having to react to 
crises as voids are created and gaps exist. To make a 
difference over time we must sustain our engagement--including 
developmental engagement, diplomatic engagement, and security 
engagement--over time.
    Thank you, sir, and I am prepared to respond to your 
questions and comments to the best of my ability.
    [The prepared statement of General Ward follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                              ----------                              

    Chairman Royce. Thank you, General Ward. Thank you very 
much for agreeing to testify here today. We are going to go to 
Mr. Bryan Christy, but I understand that Mr. Christy has a 1-
minute video that he would like us to contemplate here.

  STATEMENT OF MR. BRYAN CHRISTY, EXPLORER AND INVESTIGATIVE 
             REPORTER, NATIONAL GEOGRAPHIC SOCIETY

    Mr. Christy. Yes, sir. We are National Geographic so we 
come with our toys.
    [Video shown.]
    Mr. Christy. Chairman Royce.
    Chairman Royce. Mr. Christy, you have our attention.
    Mr. Christy. I can never live up to the technics of 
National Geographic film crews.
    Chairman Royce, Ranking Member Engel, distinguished members 
of the committee, I would like to thank you for holding this 
important hearing today to explore ways to strengthen U.S. ties 
with African countries. The leadership of this committee on 
enhancing this bond is critical and I am grateful for the 
opportunity to share my expertise to assist with your mission.
    My name is Bryan Christy. I am a journalist with National 
Geographic Society Explorer. My specialty is international 
wildlife crime. For the past 7 years I have focused almost 
exclusively on investigating the killing of elephants and 
rhinos for their ivory and horns. I do not come to this field 
as a biologist specializing in animals, I come to it as a 
lawyer turned investigator specializing in transnational crimes 
with strategic significance.
    Illegal wildlife trade amounts to billions of dollars per 
year inspiring corruption, murder, the destabilization of 
governments, the spread of disease, the devastation of species, 
and the destruction of ecosystems. The negative impact of the 
ivory and rhino horn trade is so great it warrants classifying 
elephants and rhinos as global strategic resources.
    This morning, however, I would like to draw the committee's 
attention to the people on the ground who protect wildlife in 
protected areas--park rangers, game wardens, and other local 
crime fighters--who find themselves in a battle that extends 
well beyond wildlife, a battle against transnational criminal 
enterprises including terrorist and extremist groups which 
underscores America's interest in Africa and its wildlife.
    Many of the most violent terrorist and extremist groups 
operating in Africa today have sought or currently find refuge 
in parks or protected areas--Boko Haram in Sambisa Forest, 
Nigeria; Joseph Kony and his Lord's Resistance Army in Garamba 
National Park in the Democratic Republic of Congo; the FDLR; 
the Rwandan Hutu rebel militia in Virunga National Park, DRC, 
the perpetrators of the '94 Rwandan genocide in which 800,000 
people died. This list goes on.
    Many of these groups traffic ivory or rhino horn for arms 
and other needs including the LRA, the FDLR, Seleka, and al-
Qaeda linked groups operating in Mali where three al-Qaeda 
linked Islamic extremist groups have recently merged. Other 
groups such as Al Shabaab in Somalia and FDLR in the Congo 
exploit forest resources to finance themselves, taxing charcoal 
for example. These groups are responsible for massive 
destabilization across the continent. Boko Haram has been 
implicated in the murder of 15,000 people and the displacement 
of more than 2 million. Kony's LRA has abducted over 7,000 
people and killed more than 3,000 others.
    Park rangers are often their victims. In 2014, Virunga's 
chief ranger Emmanuel de Merode was shot four times in the 
stomach and legs. This extraordinary champion for economic 
development and conservation in the Congo continues his work 
running the most dangerous park in the world to be a park 
ranger where he has lost more than 40 men under his command.
    Two weeks ago, a section of his park was overrun by about 
300 suspected ADF, Ugandan jihadist militia, and Mai-Mai 
militia. Losses have been reported on both sides and they 
engaged again on Monday. These groups are using forests as 
hideouts and to exploit villages for their food, shelter, 
water, and medicines. They rape, murder, they kidnap children, 
they compromise the security of forests where doctors and 
researchers might investigate emerging disease such as Ebola 
and the Marburg virus.
    In this environment, park rangers operate as a first line 
of defense not just for animals but also for people. In many 
cases, park rangers are the only legitimate law enforcement to 
protect and stabilize these communities, and what happens to 
communities in this part of the world all too often happens for 
these countries as well. This is not a call for indiscriminate 
militarization. When soldiers bring weapons into the bush they 
tend to use them, decimating species and exacerbating wildlife 
and resource trafficking.
    But by addressing the needs of park rangers and other 
stewards on the ground in Africa, by facilitating networking 
among rangers around the world, by training prosecutors and 
judges regarding wildlife crime, by supporting a free press, by 
working to reduce demand for threatened wildlife, and by 
engaging at a diplomatic level with government leaders across 
the continent regarding wildlife crime and violent extremism, 
the United States has an opportunity to advance its interests 
in national security, health, human rights, the environment, 
and wildlife.
    I would again like to thank Chairman Royce, Ranking Member 
Engel, and the full committee for allowing me to submit 
testimony today. Your legislation, the END Wildlife Trafficking 
Act signed into law in 2016, is exactly the kind of leadership 
the world needs. I look forward to working further to advance 
these goals and am happy to take your questions.
    [The prepared statement of Mr. Christy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Chairman Royce. Well, thank you, Mr. Christy. We go now to 
Mr. Carroll.

STATEMENT OF MR. ANTHONY CARROLL, ADJUNCT PROFESSOR, SCHOOL OF 
    ADVANCED INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Mr. Carroll. Thank you, Mr. Chairman. This month marks the 
17th anniversary of the signing into law of AGOA. That historic 
legislation would not have been enacted without the efforts of 
yourself and other members in this room, along with those 
members no longer in Congress including Jim McDermott, Phil 
Crane, Charlie Rangel, Bill Thomas, Don Payne, and Bill Archer.
    Since AGOA's passage, the economic landscape in Africa has 
changed dramatically. First, as you noted in your introductory 
remarks, between 2008 and '14 Africa's GDP grew an average of 5 
percent, with some countries exceeding 8 percent annual GDP 
growth. The most dynamic growth is Africa's burgeoning services 
sector. Second, overseas development assistance, including from 
the U.S., has fallen behind foreign direct investment and 
remittances and volume of financial flows into Africa. And 
last, as you noted earlier, China is now Africa's largest 
trading partner at $172 billion in annual trade last year, 
twice that of the United States, and Africa's investment 
patterns have followed suit.
    I will devote my testimony to the examination of the 
relationship between trade investment and identify the ways in 
which the U.S. and Africa can benefit from an expanding 
relationship. AGOA has produced a modicum of success. Two-way 
trade between Africa and the United States is approximately $80 
billion a year. From 2000 to 2016, non-petroleum imports from 
AGOA countries have shown strong growth of 75 percent over the 
same period, mostly concentrated in automobiles, apparel, and 
agricultural products.
    China's trade has been criticized as being unbalanced and 
defined by the export of raw commodities from Africa and the 
import of finished goods from China to Africa. In contrast, 
AGOA trade includes sophisticated products such as luxury 
automobiles and fine wine from South Africa; fashion apparel 
from Lesotho, Mauritius, and Kenya; cut flowers from Kenya and 
Ethiopia; and gem diamonds from Botswana and Namibia. Some of 
those aren't captured in trade data as they are sent through 
third countries. Indeed, the United States purchases over one-
third of Africa's diamonds.
    At the same time, U.S. trade balances with AGOA countries 
has improved significantly since 2000. Focusing on non-
petroleum trade, U.S. trade balances improved from a 1.3 
billion trade deficit in 2000 to an 831 million trade surplus 
in 2016. U.S. exports to the AGOA countries have grown by a 
greater percentage since 2000, up 130 percent, than have U.S. 
imports from the same countries, up 75 percent. This is a 
winning program for U.S. jobs.
    Although job creation statistics in Africa are at best 
estimates, it is widely believed that AGOA has created hundreds 
of thousands of new direct and indirect jobs in Africa and the 
United States. In South Africa alone, it is estimated that 
60,000 direct jobs have been created by AGOA and another 
100,000 indirect. In investment, the U.S. remains a major 
investor in Africa. Blue Chip companies not only bring, U.S. 
companies bring money, but they also bring best operating 
global practices, technology, and training. In 2016, the U.S. 
invested just under $4 billion in Africa.
    Indeed, there is a relationship between investment and 
trade. For example, GE invested in a locomotive manufacturing 
plant in South Africa in accordance with local content, and 
most of those imports are coming from the United States. The 
China experience has been noted before. Clearly, China's growth 
not only in trade but in investment has grown to $60 billion, 
$36 billion last year, and with the FOCAC and One Belt, One 
Road conferences recently being convened that is going to 
expand dramatically.
    Trade capacity development has been a partner to U.S. 
increased AGOA imports. The U.S. development agencies have 
spent nearly $500 million in trade capacity development, and 
this trade has been run through the various trade hubs in 
Africa. These trade hubs have supported $854 million in African 
exports to the United States and elsewhere and $195 million in 
leveraged investments. Because of the interest among Africans 
to increase U.S. investment into Africa and not just 
development assistance, these Hubs have broadened their mandate 
to include new capabilities in fostering links between U.S. 
investors and African opportunities at the firm, project, and 
sectoral level. Just this month, USAID led a group of pension 
investors to Africa and will organize a reverse mission later 
in the year.
    Africa is the population center of the world in the next 
two generations. And while that presents an opportunity in 
providing labor surplus and opportunities for manufacturing, it 
is also a challenge because if not harnessed well it could 
create the opportunities for terrorism and massive immigration 
as we have seen.
    So some of the recommendations that I have in terms of 
expanding U.S. investment relations with Africa are continued 
efforts to increase market size. Many American companies eschew 
opportunities in investing in Africa because African markets 
are relatively small at the national level.
    We should continue our efforts to expand African regional 
integration. Enhance U.S. investment in infrastructure. The 
Millennium Challenge Corporation has created a new model that 
requires greater accountability and partnership with our 
African partner countries. However, one of the absences in MCC 
is the growth of subnational debt instruments. I believe MCC 
should devote--as I recommended 4 years ago--in terms of 
regional funds MCC should consider expending a portion of their 
funds to subnational infrastructure projects, because I believe 
that is often the greater and stronger relationship to build 
infrastructure.
    We need to continue to strengthen Africa's innovation in 
enabling business environments. That includes measures such as 
IPR protection, but also tax and financial incentives to really 
give Africa's innovation communities the opportunity to grow. I 
believe that the U.S. in sharing at almost a firm level 
fostering exchanges such as the Global Entrepreneurship Forum, 
AGOA Forum, and others are an opportunity for us to expand at a 
firm to firm and innovator to innovator way and opportunity for 
U.S. investment to flow.
    Let me close by saying that--and Congressman Yoho was going 
to testify or present at the Center for Global Development the 
other day, so I thought it was appropriate for me to mention 
that I believe that the instrumentalities and instruments 
provided by OPIC, EXIM, and TDA are important to continue and 
deepen our trade and investment relationships with Africa. Much 
to the contrary I believe OPIC is a fundamental tool to really 
engender and gain the interest of small and medium enterprises 
of the United States, whereas because only 8 percent of its 
services are used by Fortune 500 companies I believe that OPIC 
and EXIM can provide a platform to improve and increase our 
trade investment.
    And lastly, I think it would be remiss for me not to 
mention the important work of the U.S. Foreign Commercial 
Service, the Foreign Agricultural Service, and domestic U.S. 
Department of Commerce offices to not only broadcast but even 
inform business communities about the myriad opportunities of 
trade and investment in Africa. Thank you very much, Mr. 
Chairman.
    [The prepared statement of Mr. Carroll follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
                              ----------                              

    Chairman Royce. Thank you, Tony.
    Ambassador Brigety?

STATEMENT OF THE HONORABLE REUBEN E. BRIGETY II, DEAN, ELLIOTT 
    SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
 UNIVERSITY (FORMER U.S. REPRESENTATIVE TO THE AFRICAN UNION, 
                   U.S. DEPARTMENT OF STATE)

    Ambassador Brigety. Chairman Royce, Ranking Member Engel, 
Chairman Smith, Ranking Member Bass, distinguished members of 
the committee, good morning. My name is Ambassador Reuben 
Brigety. I am the dean of the Elliott School of International 
Affairs at the George Washington University. Thank you very 
much for inviting me to testify this morning regarding U.S. 
interests in Africa.
    In my view, the bases of U.S. engagement with Africa in the 
near future should largely remain what they have been over the 
last three decades over both Republican and Democratic 
administrations. They include a commitment to broadening 
democratic governance, cooperating on matters of mutual 
security, strengthening healthcare systems, and supporting 
economic development. I have elaborated at length about U.S. 
priorities in Africa in an article entitled, ``The New Pan-
Africanism: Implications for U.S. Policy in Africa,'' which was 
published in the journal, Survival, in the summer of 2016. I 
submit this article for the record.
    Chairman Royce. Without objection.
    Ambassador Brigety. However, I would like to use the bulk 
of my testimony this morning to emphasize that U.S. objectives 
in Africa cannot be realized with the dramatic and draconian 
cuts to the U.S. Department of State and the U.S. Agency for 
International Development which have been proposed by the Trump 
administration. In the Office of Management and Budgets' 
document, America First: A Budget Blueprint to Make America 
Great Again, President Trump proposes ``deep cuts to foreign 
aid.''
    The President's 2018 budget request for the Department of 
State and USAID proposed a staggering 28 percent reduction from 
the 2017 annualized continuing resolution level. Recent media 
reports suggest that Secretary of State Tillerson plans to have 
a reduction of 2,300 foreign and civil service officers, or 
nearly 10 percent of the State Department's professional work 
force, within the next 2 years.
    Mr. Chairman, let me say clearly and emphatically that such 
deep cuts to the Department of State and USAID budgets will 
cause unavoidable damage to African partners and to American 
interests on the continent. The presumption by the White House 
and the Secretary of State that the ranks of the Foreign 
Service can be dramatically reduced without harming the 
national interests of the United States is incorrect, 
particularly as it relates to Africa.
    As a former United States Ambassador to the African Union 
and former Deputy Assistant Secretary of State for Africa, I 
can attest to the fact that diplomacy in Africa is a retail 
business, perhaps more so than in other parts of the world. 
Engaging directly and repeatedly with government officials, 
business people, and civic leaders is essential for building 
trust, gathering information, and advancing policies.
    It is self-evident that decreasing the number of diplomats 
available to serve in U.S. Embassies abroad, to include Africa, 
will decrease our ability to shape events and advance our 
interests on the continent. This is made all the more 
problematic because U.S. Embassies in Africa are already 
understaffed relative to our diplomatic missions in Europe.
    From Nouakchott to Nairobi, many circumstances exist to a 
greater or lesser degree at U.S. Embassies across sub-Saharan 
Africa where a relatively small number of diplomats compared, 
for example, to our diplomatic footprint in Riga or Berlin, 
must work exceptionally hard to develop the relationships 
needed to advance U.S. interests. Whether it be finding a way 
to end the fighting in South Sudan or facilitating an eventual 
political transition in Zimbabwe, it is impossible to foresee 
how decreasing our diplomatic presence in Africa can contribute 
to those and other important objectives.
    The problem is perhaps even more tangible as it relates to 
proposed cuts to the USAID budget. With the breadth of 
challenges and scope of opportunities on the continent today, 
cutting the USAID budget will inevitably harm African partners 
and hurt American interests. It is self-evident that massive 
cuts to the USAID budget, inevitably leading to the closure of 
USAID missions and the depletion of vital programs, will 
cripple our ability to respond to these and other pressing 
challenges.
    Mr. Chairman, when I served as the U.S. Ambassador to the 
African Union, I proudly often said that the United States 
was<greek-l>, quote, deg. ``the natural partner of choice for 
Africa.'' If such draconian cuts to the Department of State and 
USAID are allowed to proceed, then we will abdicate our 
position of principled partnership with African governments. We 
will, in effect, have gift-wrapped the continent and handed it 
to China. We must not cede our position of partnership to 
China, which would surely happen if the Trump administration's 
damaging budget proposals are adopted.
    In conclusion, I commend the committee for examining the 
important issue of U.S. interests of Africa, and let me say as 
well that maintaining the capacity of USAID and the State 
Department to continue to engage is squarely in the interest of 
our country. Thank you very much. I look forward to your 
questions.
    [The prepared statement of Ambassador Brigety follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
  
                              ----------                              

    Chairman Royce. Thank you, Ambassador Brigety.
    I am going to ask maybe three questions here dealing with 
poaching, dealing with trade, dealing with terrorism as it 
relates to State Department budget and USAID. These are 
programs that we have authored here, put into effect just to 
look at the results of them. The first I will mention to Mr. 
Christy here.
    If we looked at the headlines 6 weeks ago, we saw China had 
taken the lead here on shutting down the ivory market in China. 
The headline was, Elephants Get Reprieve-Demand for Ivory 
Drops, and what was happening was the worldwide demand for 
ivory as a consequence of that decision, which they made after 
we passed the legislation, did give the species a reprieve in 
the sense that it dried up the demand.
    Part of our legislation, besides helping on the ground with 
the park rangers, is the naming and shaming of those 
governments. You say that Sudan is a poaching ``super-state'' 
and Sudan doesn't have elephants of its own. Explain the role 
they are playing and what other countries you would name and 
shame as we put that list together, because the State 
Department is going to roll that out.
    Mr. Christy. Sudan's role as a poaching ``super-state''--I 
use that phrase to describe what is happening with groups 
supported by President Omar al-Bashir, who is wanted for war 
crimes and crimes against humanity. His Janjaweed, whom he 
supports, leave on horseback from Darfur and sweep across the 
continent killing elephants all the way across from Chad all 
the way across to, in 2012, the massive killing of 650 
elephants in Cameroon's Bouba N'djida Forest.
    He has given home and sustenance to Joseph Kony and the 
Lord's Resistance Army operating in the Kafia Kingi enclave 
section of Darfur. The Sudanese Armed Forces are also poachers 
in Garamba National Park. And so unlike any other state that I 
am familiar with, this is government-sanctioned poaching that 
funds arms to these extremist groups and it is in a country 
that has no elephants, so it is preying upon the rest of 
Africa.
    The naming and shaming of countries is practice that has--I 
don't use that phrase. But it is a practice that has achieved 
important results in the ivory trafficking world.
    The so-called gang of eight countries that were named as 
ivory trafficking hotspots at the Convention on International 
Trade in Endangered Species had enormous effect in pressuring 
those countries to make a difference.
    I would include those countries--I won't walk through them 
because I am doubtless going to miss one or two, but to them I 
would certainly add or include Laos, Vietnam, Thailand, and 
Myanmar, these countries that will take the place of China as 
transit countries into China as China does the admirable act of 
shutting down its ivory industry, I would look very 
significantly toward those demand countries.
    Chairman Royce. Thank you. And that brought up a question 
that we should go to General Ward about and that is Joseph Kony 
and his Lord's Resistance Army and terrorism, the terrorization 
of civilians across Uganda and South Sudan and Central Africa. 
What is your assessment? We passed legislation here some years 
ago giving you and giving our U.S. military the mission of 
assisting in this. Give us a quick assessment if you will.
    General Ward. Thank you, Mr. Chairman. The assistance that 
we provided to Uganda in particular, as well as other countries 
in the region, absolutely proved essential and provided a boost 
to the ability to limit the Lord's Resistance Army and Joseph 
Kony's ability to influence that region. It has paid off, I 
believe, in some very positive terms because his reach has been 
limited. His ability to wreak havoc in that region has been 
severely restricted.
    It is not over. It is not done. He still is there, but his 
ability to do what he had been doing--especially when you look 
at the time frame 2008, '09, '10 and '11--has been severely 
reduced as a result of the support that has been provided to 
the African military and security forces operating in that 
region.
    Chairman Royce. Thank you, General. I had one last question 
for Mr. Carroll. This goes to the trade issue. We passed the 
Electrify Africa Act here. What have you seen on the continent 
as far as a lack of electricity and how it impacts economic 
growth and how this can reverse that situation on the ground?
    Mr. Carroll. Well, I think it is of course always dangerous 
to make overgeneralizations. Certain countries have done a 
better job, a more coherent job in developing their power 
infrastructure, whereas other countries have fallen woefully 
short of the mark. Clearly, if Africa wants to expand its 
opportunities in manufacturing, in the growth of services 
sectors, which I believe it can aspire to, power is going to be 
an essential component of that. Power certainly alongside human 
resource development will be, I think, important elements of 
Africa's economic future.
    So your efforts to not only expand U.S. corporate 
interests, but also--and I think it is important that we 
mention this, Mr. Chairman--to inspire Africans to take 
measures themselves to enhance and to incentivize investment in 
their power sector is certainly, I think, an essential step in 
their economic development.
    Chairman Royce. Thank you. We go to Ranking Member Karen 
Bass of California.
    Ms. Bass. Thank you, Mr. Chair. Thank you for holding this 
hearing and also for all of the witnesses and your work over 
the years. You know, one of the things that I have appreciated 
over the last couple of years in this committee is legislation 
like you mentioned, Electrify Africa, and also Feed the Future, 
which I believe begins to change the paradigm toward Africans 
doing for themselves.
    And in that regard I wanted to ask a question both to 
General Ward and Ambassador Brigety. In terms of AFRICOM and 
U.S. military assistance to African countries, to African 
militaries in the AU, to increase the continent's capacity to 
defend itself and peacekeeping and also, you know, in a 
situation like what happened in Mali a couple of years ago when 
there was coup and they had to call in the former colonial 
power, they had to call in France, and so I wanted to know an 
assessment as to where we are and what more you think we need 
to do in terms of the U.S. military's assistance to the AU as 
well as African countries. And that is for both Ward and 
Brigety.
    General Ward. Thank you, Congresswoman Bass. It is great to 
see you again. And thank you for all that you do recognizing 
our interests in Africa as well. I appreciate that. With 
respect to the role of U.S. security assistance and military 
assistance to the African security forces, it has made a 
difference. It has caused many nations on the continent to 
increase their professionalism and, as importantly, to improve 
how they operate as militaries and civilian societies abiding 
by the rule of law and acting in ways that are in keeping with 
our democratic principles with respect to the proper role of a 
military in a civilian society.
    It is not perfect. It is not perfect. And our efforts to 
continue to reinforce the training that we provide, the work 
that is done to cause that additional professionalism to be 
present is certainly important. I use the term ``sustained 
security engagement.'' These militaries weren't created in the 
way we were overnight and they won't be corrected, i.e., 
righted in a way that we would----
    Ms. Bass. Thank you.
    General Ward [continuing]. Like them to be overnight as 
well. So our sustained security engagement--just as is the case 
for sustained developmental engagement and sustained diplomatic 
engagement--are essential elements to continue the path that is 
a positive trajectory now that we see.
    Ms. Bass. Thank you. Thank you. And for Ambassador Brigety?
    Ambassador Brigety. Thank you, Congresswoman, again good to 
see you. From the diplomatic perspective, the most challenging 
aspect of African institutions providing for their own security 
has not been their will. Frankly, African forces have taken 
extraordinary risks to engage the enemy in Somalia, in the 
Central African Republic, and what not. The more difficult 
problem has been their desire and their capacity to fund 
themselves as well as, frankly, the politics surrounding their 
own particular arrangements for their own collective security.
    And to answer your question about what the United States 
may do to further enhance that I would say two things. The good 
news is that as of the last AU Summit at Kigali last summer, 
the AU has adopted formally a number of mechanisms to help fund 
its own operations, broadly speaking, and then also as it 
relates to peacekeeping.
    One of the initiatives, as you and other members of the 
committee will know, toward the end of the Obama administration 
was to partner with the African Union, which the African Union 
would commit within 5 years to fund 25 percent of its own 
peacekeeping operations so long as the United Nations would 
fund another 75 percent for those peacekeeping operations that 
were authorized by the U.N. Security Council. This is a 
watershed development and I would urge both Congress and the 
Trump administration to continue it, because in the long run it 
is both in the interest of the United States as well as in the 
interest of Africans.
    The second problem set has had to do with, frankly, the 
political arrangements surrounding the African Standby Force, 
which as you will know consists of a series of five regional 
brigades. Politically, the difficulty within the African Union 
of advancing it has been some concerns among some African 
states that such a standing force could frankly be used as a 
method of regime change against other African countries.
    And my own view is that the best way the United States can 
support that effort is to stay out of it, which is to say to 
let the Africans resolve that process themselves, but when they 
do to let them know that the United States and other 
organizations to which we belong, like NATO, will stand ready 
to be in full partnership with them to develop their military 
capabilities to address their own issues on the continent.
    Ms. Bass. Thank you. And I ran out of time, but I would 
just like to ask the other two panelists maybe you could get 
back to me in writing, Mr. Carroll, in terms of our trade hubs, 
how they are working, and where else you think they need to be.
    And then, Mr. Christy, you referenced the legislation that 
was passed last year on wildlife trafficking. I would like to 
know how that is working and what more you think we could do 
here. Thank you very much, Mr. Chair.
    Chairman Royce. Thank you, Congresswoman Bass. We go to 
Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Chairman, and thank you to 
all of our very distinguished witnesses for your service and 
for your testimonies today. It is very, very helpful to all of 
us.
    Since we only have a limited amount of time, General Ward, 
I would like to just discuss a couple things with you. Thank 
you again for being the inaugural commander, your leadership at 
AFRICOM. We have spoken before and it is great to see you 
again. I would like to ask you just two questions, two areas. 
The first is on the training of individuals; Leahy vetted 
individuals, military men and women.
    In my subcommittee, the Africa Subcommittee, we tried for 
years to promote the training of the Nigerian military. Greg 
Simpkins and I, our staff director, traveled twice to Abuja. We 
went to Jos, where a lot of the churches have been firebombed, 
with Archbishop Kaigama. Long story short, there was this 
reluctance, and more reluctance to aggressively train in 
counterinsurgency those men and women that the Nigerians wanted 
to.
    I held a number of hearings on it. In one particular 
hearing we found out that 187 Nigerian units and 173 police 
units would be fully Leahy-vetted. They were clear and could be 
trained, and again I asked question after question about that. 
We had full committee hearings on it as well, all because we 
wanted the Nigerians who have a very capable military to have 
that very special training to take it to Boko Haram and defeat 
that insidious enemy. I am always wondering, you know, again, 
what the interface is with AFRICOM on that because I know when 
we would meet with the military people in Abuja they were gung-
ho. They can take it to them and they can defeat them, and 
obviously Boko Haram got worse and worse by the year and 
stronger and stronger.
    Secondly, on the issue of trafficking, in the year 2000 I 
wrote the Trafficking Victims Protection Act, our landmark law 
on combating trafficking. We wrote into it the standards that 
judge countries as to how poorly or well they are doing on 
combating trafficking, how well their militaries are doing. We 
contacted the Bush administration in 2001. He stood up a zero-
tolerance policy. Combatant commanders are to have people, as 
you know so well, that work on trafficking.
    And my question would be, and we have talked about this 
before, how is AFRICOM able to promote aggressively the idea of 
zero-tolerance in trafficking in the militaries of Africa?
    It seems to be, you know, the peer to peer contact more 
than anybody at State or anybody in Congress could have a very 
effective impact on they taking up those best practices that 
the U.S. military has honed so well. General?
    General Ward. Thank you, Congressman, and I will be brief 
as I respond to your two points here. Firstly, with respect to 
the reluctance of Nigeria to do what it did, on the one hand 
our association with the Nigerian military such that they are 
responding to their civilian authorities works. And therein 
lies, from my perspective, where the problem was, because the 
political environment prohibited the Nigerian military from 
doing all that those leaders and others that you indicated 
would certainly want to do.
    It even had an impact on my ability to engage during my 
time as commander there in Nigeria because of a political 
environment that just restricted our presence and our 
involvement, so in my estimation that was the problem at that 
time. I am happy to say that that is no longer the case as it 
was and the level of interaction is enhanced and improving, and 
I believe that the training that we can offer, support, the 
training assistance, is in fact the training assistance that 
makes sense for them.
    And therein lies into the second question with respect to 
trafficking. The more we are engaged and involved, our U.S. 
service members, be they sailors, soldiers, airmen, marines, 
are true Ambassadors for America. And when our young women and 
men are with the military and security forces of these other 
nations, they tend to adopt more or less our habits, if you 
will, and those are habits that respect the rights of 
individuals where those militaries have seen as protectors of 
their people across the gamut. And the issue of zero-tolerance 
in trafficking is seen as it is not something we do, we are 
here to protect our people as opposed to oppressing them and 
the more we are engaged, to include the programs like IMET, 
which is that long-term engagement, help to reinforce those 
ideals amongst the military members of our partner friends.
    Mr. Smith. Out of time, but thank you so very much, 
General. And thank you, all of you.
    Chairman Royce. Thank you, Chairman Smith. We now go to 
Brad Sherman of California.
    Mr. Sherman. Mr. Carroll, our economy is about seven times 
the size of France, yet they export 1\1/2\ dollars' worth of 
goods to Africa for each dollar we export. What are they doing 
or we are doing wrong, and in particular are our Embassies 
doing as much as they should to promote American exports? I 
would note that Germany even exports more to Africa than we do. 
France may have an advantage because of its prior colonial 
status. Germany has no such advantage. How do we export more?
    Mr. Carroll. Well, with reference to France, Mr. 
Congressman, you of course do mention that there are many 
historical relationships of a commercial nature. One thing that 
struck me about observing the French relationship with Africa 
at a commercial sense is they take it at a very, very high 
level even to the office of the President. There has been a 
historic relationship between the presidency and their former 
African colonies, and as you know the French system of 
corporations tends to run very closely along political lines. 
So there are many, many, shall we say, buttons to push that 
engage and enlarge that Franco-African relationship. I could 
talk a lot about that but I will just say that it is an 
historic one.
    I think that we could do more at the Embassy level. I was 
certainly encouraged over the expansion of the U.S. Commerce 
Department's offices and presence in Africa, because I believe 
that these Foreign Commercial Service offices can really go out 
and identify not only market opportunities but also play a 
particularly strong role, Mr. Sherman, in assisting strong and 
medium enterprise U.S. companies that may not have----
    Mr. Sherman. Mr. Carroll, I have to go on to another 
question.
    Mr. Carroll. Okay. Thank you, sir.
    Mr. Sherman. It has just been my experience that foreign 
ministries of other countries put a lot more political pressure 
and effort into exports than our State Department.
    And Ambassador, we are seeing a humanitarian disaster in 
South Sudan. Some of have suggested an arms embargo but that 
might just leave the Nuer at the tender mercies of President 
Kiir. Often when you can't create an atmosphere of peace you 
can at least create a balance of power and separation of 
warring parties. What can we do so that we don't see a 
slaughter of the Nuer people and that we restore peace to South 
Sudan?
    Ambassador Brigety. Congressman, thank you for the 
question. First of all, as you know, very briefly, almost all 
of our normal interventions have failed, not only those of 
ourselves but also those of IGAD, the regional economic 
community, and others. And to be frank, the leaders of both the 
government and the opposition have become masters at 
manipulating the outside negotiators and they are not serious 
about peace nor are they, frankly, serious about the welfare of 
their own people.
    In my view, Congressman, the leaders of South Sudan have 
lost their legitimacy and also lost their right to sovereignly 
govern their country. If ever there were a place in the world 
that were ripe for renewed U.N. trusteeship, it is South Sudan.
    Mr. Sherman. That being the case, is this a matter of 
creating a balance of power between two forces led by evil men 
or is this something where we can't accomplish anything unless 
we can, we with our allies in Africa, can go in on the ground 
and restore order?
    Ambassador Brigety. I believe that the current leadership 
of South Sudan must be replaced.
    Mr. Sherman. Got you.
    Ambassador Brigety. Preferably with indictments in front of 
the ICC. And----
    Mr. Sherman. I would point out though that I don't see any 
country with the stomach to--it is one thing to indict in 
Europe at the ICC, it is another thing to serve those 
indictments on the leaders of the two sides in South Sudan and 
to compel their attendance and I don't know if the world has a 
willingness to send troops in to achieve that.
    I have just a few more seconds and I want to make a point 
that not only do we see a terrible budget, as you indicated, 
but there is a complete failure to appoint anybody. As I 
understand it, we don't have any Assistant Secretary for Africa 
and we don't have an Acting Assistant Secretary for Africa, 
really, because the person we have filling that job doesn't 
have the qualifications, the technical legal qualifications to 
even be called acting assistant. Anything we can do to get some 
people over there?
    Ambassador Brigety. We might ask the Trump administration 
to appoint someone yesterday because it is vital that we move 
quickly in this regard.
    Mr. Sherman. Yes. And I point out these are not 
appointments pending in the Senate. These are appointments they 
just haven't gotten to, and if they just perhaps let the 
Secretary of State make these appointments we could go forward 
rather than having the White House personnel office deal with 
them. And I yield back.
    Chairman Royce. We go now to Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much. And let me just note 
that our chairman has taken an interest in Africa since he came 
here. I remember I was surprised. We both come from Orange 
County, California, and I was surprised when he came here that 
he became so dedicated to making sure that Africans' needs were 
met and that we were paying attention to what was going on 
there. And he has been doing that for 20 years now, so there 
you go.
    I would like to bring up an issue that perhaps it touches 
on everything we have been saying, but it is something that 
nobody seems to ever look at. We have here a situation where 
you have millions of people living, millions, tens of million, 
hundreds of millions of people living in abject poverty.
    The level of human suffering as compared to other places on 
the planet is probably the worst, if not--probably the worst 
human suffering that is going on is in Africa. And yet, Africa 
is a continent that is so rich in resources. I mean it is--
obviously there is a vast wealth associated with the 
fundamentals of resources in Africa, but yet hundreds of 
millions of people living desperate lives.
    And I will have to say that it is not their fault 
obviously, it is the fault of a system, and what part of the 
system now, what we haven't really talked about and what people 
don't talk about is what I happen to believe is an important 
part of the system in a way, and without it all these maladies, 
the bad guys that are exploiting and causing this deprivation 
of so many people would not be able to succeed without this 
element, and here it is.
    All of these things what you said, our friend from the 
National Geographic Society, Mr. Christy, your video showed all 
these guys with the ivory and such. Don't they have to have a 
bank to put that money into? Aren't these leaders, these 
various leaders in these countries and the various political 
people there, stealing money and putting it in Western banks?
    Isn't the financial community in some way responsible when 
it takes billions of dollars of graft, of ivory money, and of 
money from people who are stealing it from these poor 
countries, the leaders of those countries? Aren't we talking 
about the global financial system here? What responsibility do 
they play in this? And that is my question for the whole panel. 
I would go first with our friend Christy because I mentioned 
him.
    Mr. Christy. Thank you very much, Congressman. For the 
worst groups, the most violent groups operating in Central 
Africa, they operate primarily on a barter system so they are 
trading ivory for arms. And in the case of the LRA and the 
Janjaweed, to the extent there is a money face to that, that is 
really going to Khartoum, Sudan, the Sudanese Government. But 
you are absolutely right.
    Mr. Rohrabacher. Right, but even if they are trading for 
arms, eventually somebody is paying for those arms, right?
    Mr. Christy. Right.
    Mr. Rohrabacher. I mean we are talking about a system here. 
And the system, I believe, ends up with billions of dollars in 
somebody's bank where they are able to use that money for 
whatever bankers use it for.
    Mr. Christy. As a criminal investigator I look for weak 
nodes. So I look for places where if you are moving product you 
have to bring it up in a port. You can take it out of a jungle, 
we can't find you there. You can sell it to a consumer in the 
Chinese market, we can't find you there. But we can find you at 
the port where it has to emerge.
    And the financial system is a similar opportunity. You are 
putting your finger on financial crimes and the END Wildlife 
Trafficking Act gets to some of this appropriately. There is a 
financial aspect, a money laundering aspect, and it is worth 
exploring.
    Mr. Rohrabacher. Anybody else have a comment? I have 9 
seconds left.
    Well, Mr. Chairman, I would suggest, and I know this is a 
very delicate thing, but I think we need to have some focus in 
a hearing on the role that international financial institutions 
are playing in problems like this, because I believe the people 
of Africa are being robbed and their accomplices in this crime 
are Western banks.
    Chairman Royce. I think, if the gentleman would yield?
    Mr. Rohrabacher. Yes.
    Chairman Royce. I remember a conversation I had with a bank 
executive where I raised this issue in Europe about money that 
was held by Charles Taylor and I made the allegation that $30 
million was held in that particular institution. And I remember 
this executive saying, ``It is not $30 million, we have $23 
million,'' which astounded me, but nevertheless we gave that 
information to the Treasury Department.
    But it is certainly the case that if we could create more 
transparency, and I would say that this most applies to heads 
of state and to senior government officials, cabinet officials 
and so forth. If we had that kind of transparency out of the 
financial system where at a certain level that information 
became available, I think it would be a disincentive all over 
the world for those involved in bad governance.
    At that point it is probably better if you are the head of 
state or an executive to go ahead and slap your name on a 
hospital and build that for your people rather than transfer it 
out of the country with the knowledge that that might be 
exposed and taken from you. It is probably a better legacy to 
at least spend it internally in the country.
    And I think moving forward the gentleman raises a good 
point. We should work with the international community on a 
strategy that creates disincentives with respect to 
kleptocracy. We go now to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman. I want to agree with 
Mr. Rohrabacher on two things. One, what you are talking about 
with reference to the banks; but two, the extraordinary 
dedication and focus you have had, Mr. Chairman, as chairman of 
the subcommittee at one point and now as chairman of the 
committee. You have taken a number of us over to visit and you 
have had a real focus and attention on Africa and I want to 
thank you for that.
    And of course the extraordinary contributions that the 
ranking member of the subcommittee has had on Africa. And, you 
know, and somebody mentioned two names that need to be 
mentioned anytime that I think of Africa, long before I came to 
Congress, I mean that is Congressman Charles Rangel and 
Congressman Donald Payne, Senior, and surely we miss them.
    But I know and just want to make sure the extraordinary 
work that Congresswoman Bass has made, because we thought that 
it was going to be a huge vacuum when we lost them, but she has 
made sure that that has not happened and I want to thank her 
for her focus.
    Let me also thank all of the panelists, particularly, well, 
all of you, but particularly to General Ward for your service 
to the United States of America and what you have done and the 
commitment that you have made to this country, and to 
Ambassador Brigety because I couldn't agree with you more. You 
know, when we look at the State Department it is tremendously 
important to our foreign affairs. And in fact I would say, for 
the military and the State Department, it is the balance of the 
scale that makes foreign policy work. With one without the 
other we are in deep--I won't say the word. But I just wanted 
to thank you so much for that.
    So let me just ask two quick questions, one to Ambassador 
Brigety. I couldn't agree more with your opening statement. 
Maybe you could articulate the dangers of some of the programs 
that you think that would be devastated that are so important 
for our State Department with reference to working with Africa, 
and maybe you can articulate a few of those programs.
    Ambassador Brigety. Thank you, Congressman. So the budget 
document that was submitted by the President says that there 
would be no decrease in funding for health and particularly for 
PEPFAR, neither would there be any decrease in humanitarian 
accounts.
    So if one suggests that proposition, but then also suggests 
that there has to be some massive cuts somewhere if you want to 
achieve that objective there are two accounts that I am 
particularly worried about. The first is with regard to our 
democracy and governance accounts, particularly both of those 
accounts, per se, but also our economic support funds that can 
be used, broadly speaking, to support that.
    The African continent, with 54 sovereign members that are 
recognized by the U.N., 55 when you include Western Sahara, 
could be the largest democratic region in the world both 
because of the number of countries there as well as because of 
the commitment to democracy in pan-African documents 
themselves.
    But as the chairman noted, there are democracies under 
assault across the continent and if the United States does not 
step up to be a partner with pan-African institutions as well 
as national governments, there is not another major partner in 
the world that will be similarly positioned both in terms of 
resources it can apply and also in terms of its value set to 
continue to support the march toward democracy at a time when 
the Chinese and others are suggesting to other Africans elites 
that there is an alternative model for governance, namely, 
essentially, various forms of authoritarianism, which would be 
tragic.
    The second thing I am really worried about is the Mandela 
Washington Fellowship Program, or YALI, which has been an 
incredible tool in the very short period of time it has 
existed, both to identify young African talent and also to find 
ways to encourage that young African talent to engage in their 
own countries and to teach them and to help expose them to 
means of Western governance, Western political engagement, and 
what not.
    And I can promise you, in an environment where young 
Africans are looking for ways to fill their aspirations we want 
them to be looking toward us and not elsewhere.
    Mr. Meeks. Thank you. I also just want you to know that you 
must have been great at the State Department. I have had 
Madelina Young-Smith now with me for awhile and she is 
excellent too.
    Mr. Carroll, I want to ask you a quick question. What 
investment opportunities that may be going unrealized for U.S. 
firms, what would you look at and say that there is other 
opportunities that we may be able to be taking advantage of but 
they are not currently taking advantage of?
    Mr. Carroll. Well, I will just mention two, sir, I think in 
the area of engineering and design services. I think the U.S. 
firms have an awful lot to offer and I think they are often in 
the second-tier firms that might have real strengths in 
providing those services to Africa. So I do think in the design 
and engineering and architectural field I think there are a lot 
of service opportunities in Africa.
    But also in agribusiness, sir, I do believe that Africa is 
at a pivot. I think its future will be to have to modernize, to 
learn some of the lessons of the Green Revolution of India. And 
I think American agribusiness companies, particularly those 
that offer technologies such as irrigation systems, inputs of, 
you know, farm and herd management solutions, are going to find 
Africa to be a massive opportunity because Africa has the 
largest percentage of undeveloped, arable land in the entire 
globe.
    Chairman Royce. We go now to Mike McCaul, Chairman Mike 
McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I chair the Homeland 
Security Committee and one thing I have found time and time 
again is that terrorism thrives in failed states, in poverty, 
in safe havens. Unfortunately, Africa has many of those as we 
look at Boko Haram, Al Shabaab, al-Qaeda, and the Maghreb. And 
I think we have made some progress. The Millennium Challenge 
Corporation has been helpful. The Gates Foundation, I have met 
with Bill Gates. The ONE Campaign is trying to move forward in 
this development of Africa.
    My first question, General, is to you. I visited Camp North 
in the Sinai Peninsula where ISIS is prevalent, then went to 
Tunisia and visited with the Libyan team. Libya is still very 
much a strong threat to the homeland in terms of the numbers of 
ISIS, as is Sinai. General Haftar in the east, and then you 
have General al-Sarraj in Tripoli, it seems to me if the 
military can't get it together then you can't have governance, 
and if you can't have governance then you have terrorism.
    Can you tell us where we are with that and what can we do 
more to foster a unified government in Libya?
    General Ward. Thank you, Congressman McCaul. And obviously 
my understanding of it is from a position of afar, not directly 
involved these days. However, there are some things that I 
think are substantially important in moving along in these 
regions that you have described. To be sure, fragile states, 
failing states, are breeding grounds for nefarious activities 
of all sorts--human trafficking, narcotics trafficking--
certainly terrorist havens for training and exporting that 
violence globally.
    Where we as the United States of America are involved in a 
sustained way to, one, help security forces who are responsible 
for their territories be better prepared to do that makes a 
difference. Equally important is our engagement and from a 
developmental perspective to cause those who are living in 
those areas to see what I call this horizon of hope. Because 
where they are, there are things being done for them by their 
government, and by those who would support their attempts to 
have things provided from a literacy perspective, from a health 
perspective, that will help increase their ability to live the 
way that we as any human beings would want to live.
    Mr. McCaul. And I agree. But how do we get these two 
generals to work it out? I mean that seems to be the key 
problem in Libya to me.
    General Ward. I would be happy to have a private 
conversation with you about that.
    Mr. McCaul. Okay. We have a SCIF in the Capitol.
    General Ward. But the essence, sir, is causing their 
behavior to change, similar to what we see in South Sudan. And 
unless and until that happens, making progress will be very, 
very difficult, so causing their behavior to change so that 
they are less selfishly motivated and motivated for the good of 
the country opposed to not.
    Mr. McCaul. Thank you.
    Mr. Christy, so terrorist financing, this is really quite 
horrific. They are using ivory to finance terrorism in Africa, 
and I commend what you have done to try to track this down. Can 
you tell us about the wildlife trafficking bill that this 
committee passed, how that is helping in this effort and what 
more can we do to shut that down. And we know that there is 
cocaine coming in from South America, you know, on the west 
coast of Africa to funnel in and finance this as well, but tell 
us about the impact of that legislation and what more we can 
do?
    Mr. Christy. Thank you, Congressman. I think, you know, all 
of this takes more time than we want. That bill, the law was 
signed, I think, in October of '16, so it is really too early 
to tell the impact. Certainly identifying the countries is the 
next step, the problem countries as traffickers, and that has 
proved in the ivory world to be significant.
    So to take it the next step and identify countries that are 
linked with extremist groups and the trafficking in these 
materials--ivory, rhino horn, et cetera--will be significant. 
The world needs diplomatic pressure on these countries to 
address these problems. These groups, I mean one of the things 
where we could make a big improvement is to look at the ways we 
have siloed these problems.
    So we tend to look at wildlife trafficking as a wildlife 
problem and we think it is the aegis of biologists to address. 
We don't do that with cocaine. We don't put botanists in charge 
of the cocaine trafficking problem. If we move out of the 
biologist mindset and move to a law enforcement mindset, we 
begin to change how we think about these problems.
    So as an example, I was in Garamba National Park which has 
been under siege from South Sudanese poachers, LRA, all these 
bad guys in this area, and I looked at the maps that they had 
for tracking the poaching groups and very detailed maps that 
they pin every day to update. And I had the opportunity to fly 
over to Central African Republic and spend time with the 
African Union forces there and I noticed they had similar maps 
and they overlapped and they had pins in those maps with 
different poacher and extremist group movements.
    And I said do you guys talk to each other? No. And so I 
introduced them and they began talking and they had suspicions 
about the activities of the other. The park ranger suspected 
the Uganda military was poaching from helicopters. So two 
things happened, one, we were able to clear that up to their 
satisfaction; and two, they could begin exchanging intel. And 
that sort of intelligence sharing is critically important.
    Mr. McCaul. I am well beyond my time. Thank you, Mr. 
Chairman.
    Mr. Christy. Sorry.
    Chairman Royce. Thank you. We go now to Mr. David Cicilline 
of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I too want to thank 
you for your longtime commitment to Africa and the great 
leadership you have provided, and also acknowledge the 
extraordinary passionate and effective leadership of our 
ranking member of the subcommittee, Karen Bass, who has made 
her work in this area known not only throughout our country but 
throughout the region, and I really want to thank her for that.
    General Ward, I want to ask you. There are currently nine 
U.N. peacekeeping missions deployed to various parts of the 
African continent constituting more than 82 percent of all U.N. 
peacekeepers serving in the field. Peacekeeping operations, as 
you know, are some of the most visible and consequential 
activities undertaken by the U.N. and play a very important 
role in advancing peace and security.
    And I am interested, you know, given your experience as 
AFRICOM's commander, you know, what you would say in terms of 
the role of peacekeepers in terms of peace and security in 
Africa and particularly in your experience what makes some 
peacekeeping operations more successful than others and are 
there best practices that we should be analyzing and 
incorporating to future missions so that we can even enhance 
the effectiveness of peacekeeping missions further?
    General Ward. Thank you, Congressman. Two critical elements 
to effective peacekeeping, one is obviously being resourced and 
trained appropriately in order to conduct a mission. The second 
has to do with the will of the government that provides the 
peacekeeping forces and how that is infused into the conduct of 
those peacekeeping forces as they execute their mission.
    When you have those two--and obviously it is all 
underwritten by a mandate that allows what needs to be done to 
in fact be done. But if those forces are resourced and trained 
adequately and the government will to accomplish the mission is 
there, then peacekeeping forces are effective. And there were 
varying degrees of that that I witnessed across the continent.
    I would also add, Congressman, while we are talking about 
that, peacekeeping in and of itself is one dimension of 
providing that stability and security. If it is not accompanied 
by a healthy dose of developmental support, such that the 
peacekeeping void if it is not filled can be filled by 
something that makes sense to the people, then that 
peacekeeping effort goes on and on and on, which we also see.
    So peacekeeping in and of itself is one piece of it, one 
aspect of it, but the void, the requirements for development 
assistance, support, progress and that certainly has the 
underlying effect of governance as well so that those things 
support it, will, forces that are trained, resources are 
important.
    Mr. Cicilline. Thank you very much. That sort of gets to my 
next question and this is for you, Mr. Carroll. In recent years 
we have witnessed a narrowing of political space in countries 
like the Democratic Republic of Congo, Rwanda, Uganda, Burundi, 
and the Republic of the Congo. This has been coupled with 
efforts by many of these leaders to extend their tenures in 
power through constitutional coups which eliminate term limits 
for the incumbent.
    What are the concrete measures the State Department and 
USAID should be taking to support democratic institutions and 
help reverse this worrying trend; and a related question, how 
should African leaders' amendment or circumvention of 
constitutional term limits impact U.S. bilateral aid in your 
judgment?
    Mr. Carroll. Well, I think we should continue to work with 
institutions in the countries that we can work with. They could 
include the media. They could include the legislative branch. 
They could include civil society organizations that we believe 
can bring domestic as well as external leverage, because I 
think it has to be not just us, we have to have domestic 
sources in the fight.
    But from a business perspective, if you don't mind, Mr. 
Congressman, I find that unpredictability in the business 
environment is one of the greatest discouragements to foreign 
direct investment. And I think we in the business community and 
through perhaps our local counterparts and business 
associations need to carry that message that if you are going 
to want to do business with us, if you are going to want to 
attract technology and investment we need to have a measure of 
predictability in these countries. Congo is a perfect case in 
point, a country with vast mineral and agricultural potential 
that largely goes undeveloped because of this issue of 
unpredictability.
    Mr. Cicilline. Great, thank you so much.
    I want to ask just one last question for you, Mr. 
Ambassador. One very concerning trend during political protests 
and elections in sub-Saharan Africa is that the governments 
have shut down access to the internet and other forms of 
communication in order to limit dissent. This has recently 
occurred in Ethiopia, Gabon, Cameroon, Uganda, and the 
Democratic Republic of the Congo, making it very difficult for 
citizens and journalists to report human rights violations or 
electoral irregularities.
    I would be interested to know what actions you think our 
Government should take to mitigate this threat to the freedom 
of information and legitimate political expression in the sub-
Saharan Africa.
    Ambassador Brigety. Thank you, Congressman. Very briefly, 
the first obvious one is for robust engagement with those 
governments to demonstrate to them why it is crucially 
important, notwithstanding political differences, to continue 
to have open media space. Because at the end of the day, if 
people are not allowed to air their grievances peacefully they 
will do so forcefully, and I think that clearly is the lesson 
in Ethiopia, for example.
    And then secondarily, depending on the situation there are 
obviously tools and techniques that are resident within USAID 
and also at civil affairs units to be able to make access to 
internet available on a sort of more regional or smaller scale 
basis. But even those things, as I said in my testimony, 
require resources and I think it is important to continue to 
fund those things.
    Mr. Cicilline. Thank you so much. And thank you, Mr. 
Chairman. I yield back.
    Chairman Royce. Thank you. We go to Ted Yoho from Florida.
    Mr. Yoho. Thank you, Mr. Chairman. And thank you, panel, 
for being here, very engaging and I really appreciate it. And I 
know a lot of the talk has focused on cutting foreign aid and I 
was one of those ones when I came up here 4 years ago to get 
rid of foreign aid, but I have become much more learned in my 4 
years here.
    And, you know, I realize and I agree with Secretary Mattis, 
who says if you cut foreign aid save that money and buy 
ammunition with it, and I truly believe that. But I bring that 
up because we are in a financial crisis in this country that is 
going to get worse if we don't deal with the underlying problem 
which is mandatory spending and we have to address those 
things. And if not, what you are seeing today is a sign. It is 
a tremor.
    I got a report at the beginning of the year that said our 
seniors in Social Security were going to get a 25 percent cut 
across the board on Social Security checks within 12 years. And 
when it comes down to our seniors or foreign aid, you know 
where it is going to go. So I say that because you guys are the 
ones that need to make sure that our money on the ground is 
doing the work it is supposed to be doing.
    And our goal, my goal is to transition all of our countries 
that we are giving foreign aid to, to go from a model of aid to 
trade, and that is why I am so excited about the OPIC models 
and the MCC. They have accountability. They have metrics in 
place. And as good as they are we need to make them better. If 
we look at our top 15 trading partners, 12 of those were 
recipients of foreign aids. I think South Korea is a great 
example and we can look at country after country that has done 
the same thing.
    And so with that several questions came up. What is the 
major impediment in these developing countries to build out 
their infrastructure? We went to the Congo with Chairman Royce 
and Ranking Member Engel. And if you look at the whole 
continent of Africa it is approximately 1.11 billion people. 
This is the 21st century; 650 million people do not have 
electricity. And we were strong proponents of Electrify Africa, 
the Global Food Initiative, and the other bills that Chairman 
Royce spoke about. Six hundred and fifty million people don't 
have electricity.
    And you look at the billions and billions of dollars this 
nation has invested of these people's monies out here and the 
trillions of dollars around the world, what is that major 
impediment that you see that prevents a country from taking 
care of their own people instead of taking care of the rulers? 
How do we change that too, so the impediment and what do you 
see?
    Ambassador Brigety, if you would?
    Ambassador Brigety. Congressman, thank you very much. Let 
me begin by saying that as a taxpayer myself of course I 
obviously believe very much in the effective stewardship of 
American taxpayer dollars and as with every program there are 
obviously ways in which they can continue to be refined and 
efficiencies found and things of that nature.
    But at the same time one also has to make sure that we are 
making effective investments for not only for----
    Mr. Yoho. Absolutely.
    Ambassador Brigety [continuing]. The major of our security, 
but also for the growth of our partners. With regard to 
infrastructure investments, broadly speaking, I think it goes 
something to what my colleague Tony Carroll said which is, one, 
infrastructure are long term and big picture investments. And 
as one senior investor once told me, capital is cowardly. It 
does not want to go to places where there is substantial 
insecurity. So in this sense, the nature of good governance to 
ensure both a stable sort of peaceful environment as well as a 
stable regulatory environment is vital toward attracting the 
long term capital necessary to build infrastructure.
    The second also is, frankly, having willing investors that 
are prepared to take risk, notwithstanding what I just said 
about insecurity, and the Chinese have proven that it can be 
done. The Ethiopians have proven that it can be done in terms 
of, you know, marshalling capital for the Grand Renaissance 
Ethiopian Dam. I am one who happens to believe that the future 
of Africa's next chapter of their history will be defined by 
private sector-led economic development.
    And as somebody who is a diplomat who constantly thinks 
through foreign policy implications, I can also tell you that 
we simply cannot be able to maintain our position with 
partnership with the continent without the robust involvement 
of the American private sector and particularly as it relates 
to American----
    Mr. Yoho. Well, and that is what I like about OPIC because 
they put the metrics and they will fund those organizations or 
the private sector. And if you look at 1961, the majority of 
the foreign investment in countries was foreign governments. 
Today that is only 9 percent. The rest is coming from the 
private sector.
    And Mr. Carroll, you were talking about--oh, shoot. I 
forgot what I was going to say. You were talking about the 
investment with OPIC and how we can make that more effective in 
those countries. Can you expound just a little bit? I have only 
4 seconds, so I guess you can't.
    Mr. Carroll. We have 2 seconds. I think we can do more 
leveraging with domestic capital. I think there are many 
pension funds and other institutions on a national and regional 
level that OPIC could do more work for and do a little bit more 
leveraging. We can have a separate discussion or I can respond 
to other questions in a longer discussion.
    Mr. Yoho. Great, thank you. Appreciate your time, thank you 
all.
    Chairman Royce. We go now to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. And I will echo the 
statements of many of my colleagues in the leadership that the 
chairman of the full committee and certainly the leadership of 
the ranking member of the Subcommittee on Africa and Human 
Rights has shown.
    This morning I had the opportunity to address the Meridian 
International Center's global dialogue with African women 
leaders and in the conversation that we had, the importance of 
recognizing the global interconnectedness that you know, we can 
no longer think of ourselves as isolated.
    I look at this from the perspective as a physician. You 
have public health crises that occur in Africa, they clearly 
matter to what happens here in the United States. From that 
public health perspective you don't wait until it hits our 
shores, you make those investments and you go to the epicenter 
and address that. So, I was listening to my colleague Mr. 
Yoho's comments and I agree with them that we have to be 
fiscally sound and make sure we are making the right 
investments, but the return on investments are also incredibly 
important.
    In that sense, when we think about our three planks of our 
foreign policy, it has three legs on it. Not just defense, but 
it has diplomacy and development. And that development 
component often is overlooked because, yes, you might be 
spending $1 today, but what you are doing is potentially 
avoiding $10 in defense costs or public health costs, or the 
tolls. How do you put a price on a human life? So, I applaud 
President Bush and his initiatives, and PEPFAR had huge 
returns, huge returns on the saving of life.
    Ambassador Brigety, you served in the State Department 
during the 2011 famine in East Africa and also as our 
representative to the African Union during the 2013 Ebola 
crisis. You have touched on how this is not the time for the 
United States to change its priorities and withdraw from a 
region, and I would be curious knowing that we are facing 
another potentially devastating crisis and famine and loss of 
life in the coming years what would you advise us at this 
juncture?
    Ambassador Brigety. Well, Congressman, thank you very much 
for the thoughtful question. There is both I think, an obvious 
and then a less obvious answer. The obvious answer is that we 
clearly need to be continuing to support our health accounts 
and our humanitarian assistance accounts for the sorts of 
interventions that were necessary, for example, to respond to 
the 2011 famine in Somalia as well as the 2014 Ebola crisis.
    But the less obvious component is that there are profound 
diplomatic interventions that make that kind of response 
possible. Let me give you an example. During the 2014 Ebola 
crisis I lost years off my life in helping to respond to that 
crisis because by the summer of 2014 we were seriously looking 
at epidemiological curves that would say we would have 1 
million dead Africans within 6 months, by January, unless we 
were able to flood the zone of Liberia, Guinea, Conakry, and 
Sierra Leone with healthcare workers to actually respond to the 
crisis.
    So we did a lot of behind the scenes diplomatic work to get 
the African Union in the fight so that by December of that year 
they had nearly 1,000 healthcare workers from across the 
continent that converged on those three countries to provide 
direct patient support to people that were affected. Now the 
Africans deserve enormous credit for stepping up, but frankly 
it would have taken at a minimum a lot longer to do so had we 
not done a lot of depth diplomacy behind the scenes that nobody 
ever saw.
    And we are already at the next time with regard to Ebola in 
the DRC and as to regards to the three unfolding famines on the 
continent, which is why it so critical for us to be able to 
maintain that capability to develop the kind of trust that is 
necessary with our African partners so we can respond to these 
crises.
    Mr. Bera. Wonderful. I think of America as a great nation, 
but it is also that idea of America, those values that we 
represent. And a great nation--when they see famine and when 
they see public health crisis--doesn't retreat from the world, 
a great nation leads with our moral values. We see the 
humanitarian crisis. We see the public health crisis and we 
lead. And it is that idea of America that we have to hold onto. 
That idea of American leadership that for generations folks 
have believed in.
    As I listened to these African women leaders, that is what 
their worry is that yes, we have domestic challenges here, but 
you know what, it is that idea of who we are as a nation, that 
greatness we can't let that disappear. Thank you and I will 
yield back.
    Chairman Royce. We go now to Dan Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman. I apologize for my 
tardiness, I had another matter, but some of these questions 
may have been asked already. I am a member of the subcommittee 
that deals with Africa and global health of our larger 
committee. And maybe because 2 weeks after I was elected to 
this office, at 58 years old, I had my very first baby--her 
mother actually calls her my very last baby--but I got this 
great interest. I am honored to serve on this committee that 
deals with global health about women and children who are dying 
from preventable diseases, things that we have vaccinations for 
that for some reason or another are either unavailable or we 
can't get to mothers and babies who are suffering in African 
countries. I understand we have gotten better at it over the 
years, but there still seems to be some obstacles.
    And I don't know who the proper person on the panel is to 
answer this question, but if somebody could just give me some 
insight on how successful you feel we have been and what we 
could do to be even further along in our success in helping 
mothers and babies in Africa.
    Mr. Carroll. If I might jump in here because I have done a 
fair amount of work with the Gates Foundation--polio in 
Nigeria--and continue to do a lot of work with Merck, the 
world's largest vaccine company and their projects in Africa. I 
think it can't happen without building the health 
infrastructure in these countries. Many of these countries 
spend $4 to $6 per person per year on their health. Without 
developing a fulsome health infrastructure, any vaccination 
campaign, any type of preventive mechanism will not be 
successful, and it has to be led from leaders within that 
country, not just an externally-led foreign assistance program.
    But I think it can happen. Certainly the success in polio 
eradication in Nigeria is an ongoing battle, but they have 
achieved a lot of success. In Rwanda they instituted an HPV 
vaccine program in Rwanda that produced incredible adherence 
among Rwandan women. I believe that cervical cancer is among 
the two largest killers of women in Africa and the only magic 
bullet we have in the world of vaccines is the HPV vaccine, 
which is extremely effective. They made a commitment to build 
out their infrastructure. They made a commitment from the top 
down that this is an important program.
    So we have to engage leadership in getting the message. We 
have to help them build the infrastructure to staff and 
implement these programs. And we are not going to get it done 
if we are cutting the Fogarty Center and other CDC programs 
that are absolutely linchpins to these programs in Africa. We 
have to be able to be at their side, but it still has to be led 
from those countries. So thank you for that opportunity.
    Ambassador Brigety. Congressman, if I may add to that and I 
am grateful for your passion on this issue. The issue with 
regard to building healthcare infrastructure in Africa is that 
it is not like building a bridge. I mean once it is built it is 
done and you can walk away. They are more like sort of living 
organisms in the sense that you have to continue to train new 
healthcare workers, one has to continue to deal with access and 
extension services in the rural areas or what not.
    And this is why it is critically important for the United 
States to be able to maintain its capacity to help develop the 
long term infrastructure of healthcare systems in African 
countries. The Ebola crisis, I think, is very instructive in 
this regard. So we had been involved for many years in helping 
to develop the healthcare infrastructure in Liberia, for 
example, which is focused not only on primary care but also in 
helping to address HIV/AIDS.
    With the advent of the Ebola crisis and its coming to 
Monrovia, the healthcare system in Liberia was devastated, and 
by that we mean doctors, nurses, in which we had invested many 
years, died and were no longer there. So the ability for us to 
continue to help train and educate and provide more and more 
healthcare officials not only is something that has to be 
sustained over time, but sustaining it is clearly in our own 
national interest in addition to what it does for, you know, 
mothers and children in those countries. Because the next time 
there is another major pandemic on the continent we can't just 
insert a healthcare infrastructure, one has to develop it over 
time.
    Mr. Donovan. Mr. Ambassador, could you--I don't know what 
some of the questions--do we find that the governments in the 
African countries are cooperative as well or are there people, 
are there regimes and governments that are trying to prevent 
their citizens from receiving the aid that we are so willing to 
provide?
    Ambassador Brigety. Congressman, I am not aware of any 
African country that is not willing to partner on matters of 
health. In most places it is a matter of resources, to be 
frank, and it also may be a matter of a prioritization of those 
resources. So it might be, for example, the decision of whether 
or not you concentrate health services in the capital city 
versus extension services in rural areas, or focusing more on 
primary care as opposed to care for tertiary diseases like 
diabetes or cancer or other sorts of things.
    General Ward. Mr. Donovan, a quick postscript if I might, 
Mr. Chair. Healthcare facilities on the continent of Africa are 
not the Walter Reed National Military Center of Bethesda. A 
quick example, in Comoros, where the USAID had a program where 
they were training local medical providers, we were able to 
partner with our USAID counterparts and using Department of 
Defense engineers, build a concrete block structure whereby 
medical practice could be accomplished. And providing clean 
water to that facility facilitated the provision of a health 
service that community did not have previously and changed the 
whole dynamic in that community.
    And these are the things that this 1 percent of our 
national budget that goes to promoting our international 
systems abroad. It creates feelings, creates a sentiment, 
creates the result that pays dividends on and on and on and 
helps to stabilize those environments.
    Mr. Donovan. That is a great example of our successes.
    The last thing I just want because my time is way over as 
well, my colleague was talking about investment in Africa, 
private investment. I met with a group, and my staff can supply 
you with their information, yesterday, called Rendezvous, who 
are developing planned communities in seven African countries, 
so I would just offer that to you if you would like to hear 
more about it.
    Thank you. Mr. Chairman, I yield whatever time I have left.
    Chairman Royce. Thank you, Mr. Donovan. We go to Norma 
Torres from California.
    Ms. Torres. Thank you, Mr. Chairman, and thank you to our 
guest panelists here today. General Ward, in your testimony you 
made a very compelling case for why U.S. engagement in Africa 
is in our national interest and I very much agree with you on 
that.
    Ambassador Brigety, you have also made a point and I want 
to share with you that the point that you have made on the 
Ebola crisis, you know, this point was driven home for many of 
our constituents during the Ebola crisis in 2014 and 2015. We 
have had a really great conversation here. I am new to the 
committee and I am trying to wrap my hands around all of these 
issues we have talked about, ivory being used to finance 
terrorism and these civil wars.
    The one thing that we have not talked about, unfortunately, 
is how rape is being used also against women, against very 
young women in this continent. Projected U.S. global health 
funding for 2017 is an estimated $9.5 billion, all of which is 
subject to President Trump's Global Gag Rule, so let's talk 
about that for a little bit.
    Every year, despite increased access to safe abortion 
procedures, 6 million African women end their pregnancies 
unsafely and 1.6 million are treated for complications. So when 
we talk about safety and we talk about saving, you know, these 
wonderful animals, what are we doing to help our young women in 
Africa and how are we helping to ensure that there is a 
healthcare system in place to help them get the necessary 
procedures that they need, whether that is family planning or 
what are we doing to teach them how to protect themselves from 
these abusers?
    Ambassador Brigety. Congresswoman, thank you very much for 
that very important question. Both as a Deputy Assistant 
Secretary and also as an Ambassador I could spend days telling 
you about stories that I have encountered meeting women who are 
rape victims in Eastern Congo, refugee women in northern Kenya, 
et cetera, that have experienced exceptional trauma. And I have 
been very proud of the types of assistance that the United 
States has provided over time to address rape as a war crime, 
to provide services to help rape victims recover from these 
challenges.
    With regard to your question about the Global Gag Rule let 
me say, Congresswoman, that I understand that the question of 
abortion is an incredibly sensitive one with deep feelings on 
both sides of the debate, one that we will not resolve here. 
But one thing that is absolutely accurate is that the nature of 
the Global Gag Rule as articulated and its expansion under the 
Trump administration will have negative, harsh, unintended 
consequences for women who desperately need gynecological care.
    And it seems to me that if one is morally motivated with 
regard to the protection of life and compassion for those that 
are suffering, one would try at a minimum to find a way as you 
address these incredibly challenging moral questions that one 
does not harm those women that are desperately in need of the 
kinds of services that we provide.
    Ms. Torres. They are victims in two separate ways.
    Mr. Christy. May I add?
    Ms. Torres. Please.
    Mr. Christy. So one of the things that I was excited about 
bringing to the fore today was that when we are talking about 
these wildlife crime issues there is an opportunity to leverage 
that to do something more important or bigger. These rangers 
are on the ground in rural and remote areas and they represent 
the only law and order in those areas. In many of the worst 
areas in terms of violence these rangers are part of a public-
private partnership. African Parks is one organization that 
brings together very disciplined guys to work with the local 
wildlife authorities to bring order, and the villagers in these 
places said to me they are my protector.
    And some of the most dangerous forces in these remote areas 
are military, U.N. workers, as we know, and to have these 
smaller groups that are trained specifically and are working 
with Americans in many circumstances, you have an opportunity 
to address that.
    Ms. Torres. My time has expired.
    General Ward, I hope to be able to have a conversation with 
you outside of these four walls. I think there is so much work 
to continue to do and I am really happy to help in any way that 
I can, Congresswoman Bass. The bigger humanitarian crisis that 
I am interested in helping in the region is how these policies 
are impacting women that have been raped, their children, who 
is taking care of them, and the LBGT community is another issue 
that we have not addressed here today, so I yield back my 
expired time.
    Chairman Royce. Okay. Let's go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. Thank you, Ms. Bass. And 
thank you to the witnesses. As a member of this committee I 
have had an opportunity to be in Africa a number of times, 
different countries. I left this meeting. We have so many 
meetings going on at the same time, but the reason I left the 
meeting a few minutes ago was to meet with a group of African 
women who are in a leadership program. Many of them are in 
Parliament in different areas of Africa. They are just a lot of 
different, wonderful leaders, so that is where I was.
    So it was interesting, because I wanted to ask them about a 
topic that Representative Torres brought up which is important 
not only to them, but I think to women all over the world and 
that is being able to be in control of your own body and to 
decide if and when you want to have a family because there is 
nothing that changes your life like having a family, right. I 
think everybody who has had a child knows that.
    What I think is also important and I learned this--I was in 
Malawi last year in one of the villages and one of the things 
they were stressing was the need to get women into the economy. 
And that seems to be another worldwide issue--when you get 
women into the economy, you can double your productivity.
    It is very, very hard, difficult, sometimes impossible for 
women to become part of the economy and to sustain themselves 
in an economy if they cannot be in control of their own ability 
to plan their family, so it is why this Global Gag Rule that 
President Trump has brought back is very, very worrisome. I 
know Representative Torres asked you about that.
    And I just, I talked to these women just a few minutes ago 
and the word that I got back from them was cruel, it is cruel. 
Part of the cruelty is not just what it could potentially do to 
a woman's health, because this is just not all about abortion 
but this gag rule is a chilling effect to any healthcare 
provider who may use their own money to either perform an 
abortion or save a woman who has gone and had an illegal 
abortion which is apparently very prominent in Africa, so you 
have this chilling effect.
    And what they said is, you know, if you are going to do 
this, which they of course they say, you know, why are you 
doing this, why don't you give us enough notice so that there 
is not a gap in services? But what I would like--I know you 
have commented with Representative Torres on this issue. What I 
would like for you two is talk about, if you can, the 
importance of women's involvement in the economy and how 
important it is to keep them healthy and vibrant.
    Mr. Carroll. Let me just offer an observation on the 
economic inclusion of women. There are many societies that have 
de facto and de jure constraints about women owning a title to 
land, being able to establish a business, their of course being 
able to obtain business licenses, getting the training 
necessary. I think there is certainly a trend among these 
organizations such as those that you have met today to try to 
level the playing field so that women can play a more formal 
role in their economies. So I think this is a process that 
people have their eye on.
    I won't comment on the gag order because I know there are 
people here that can talk at greater depth about that than I 
am, but I do think this idea of women inclusiveness in the 
economy is an issue that is being worked on.
    General Ward. Congresswoman Frankel, I was in Africa last 
year, I believe, with the U.S. Global Leadership Coalition 
where we had a chance to visit with various activities that had 
some sponsorship put on that was part of our U.S. foreign 
assistance. In particular, we visited a farm that was owned by 
a woman and she and her children were doing things that were 
beyond any scope that that program had been designed to take 
care of, making huge, huge progress, but not just for her and 
her family.
    She had also gathered and had caused other women to be a 
part of that co-op, if you will, creating a dynamic in that 
community that led to stability because their sons weren't 
being turned into terrorists. It led to increased health 
because they were producing products that were good for 
increasing their overall local health and the products were of 
such quality that they are being exported, bringing revenue 
into that community. Women--when they are allowed and empowered 
through health or through sponsorship and promotion to be 
entrepreneurs--definitely make a difference, a positive 
difference.
    Ms. Frankel. Thank you. Thank you very much, and I yield 
back.
    Chairman Royce. Thank you. And I would just note that 
Congresswoman Lois Frankel kept with the goal which was 
yielding back time when there is time still to yield back.
    We go now to Ted--it still sets a new record. We now go to 
Ted Deutch of Florida.
    Mr. Deutch. I thank you, Mr. Chairman. Mr. Chairman, there 
is strong bipartisan support in Congress for expanding our 
assistance to Africa and I know that we will put up a fight 
when the administration tries to cut U.S. support there in its 
2018 budget. What worries me in the short term is the damage 
the President and his team have already done to our 
relationships with African leaders.
    Secretary Tillerson invited the chair of the African Union 
to visit Washington and then blew him off. All 60 African 
leaders who were invited to an African trade conference in 
California had their visas denied by Trump's State Department, 
and the same State Department has no appointees to run offices 
and bureaus that oversee our work in Africa. We know the 
President wants to shutter one third of USAID's 100 missions 
and cut 30 percent of its budget, which would certainly mean 
cuts in Africa where the agency does the largest share of its 
work.
    The signal from the Trump administration seems to be pretty 
clear that the United States doesn't respect African leaders, 
doesn't want to do the work of partnering with African nations, 
and doesn't value U.S. engagement on the continent. Now in 
Africa, every inch that we withdraw, countries like China are 
ready to step in, in ways that are damaging to U.S. interests 
and the long term well-being of the people of Africa.
    Now Ambassador Brigety, I ask whether you worry that even 
before we begin this budget debate whether serious damage has 
already been done to our relationships with partners and 
friends in Africa, and also what is at stake if we abandon 
America's tradition of engagement and partnership with Africa 
in favor of what appears to be a rather incoherent and short-
sighted withdrawal from Africa?
    Ambassador Brigety. Congressman, thank you very much for 
the question. I just 2 weeks ago attended the World Economic 
Forum Africa in Durban, South Africa, and what I can tell you 
is in any number of conversations I had on the margins of that 
meeting with African business people, elected officials and 
what not, there is profound concern about the continued nature 
of American engagement in Africa under the Trump administration 
for reasons that you just articulated. I think that the way in 
which Chairperson Faki was treated was seen incredibly 
negatively not only by the African Union Commission but by 
African leaders across the continent. It is worth noting that 
to his great credit Secretary Tillerson subsequently had a 
phone call with Chairman Faki on May 8th to invite the 
chairperson to Washington, DC, for the next round of the U.S.-
Africa strategic dialogue. One hopes that happens and that one 
can make up for those mistakes.
    But as an outsider looking in that mistake and the mistake, 
for example, Rwandan President Paul Kagame, who is one of the 
most prominent leaders on the continent, was here in Washington 
about a little over a month ago, nobody from the administration 
met with him, neither anyone from the White House nor anyone in 
the State Department.
    And this suggests either one of two things, either this 
administration has decided that Africa is not a strategic 
priority and that is what explains these various sorts of 
things, or what I believe is a more likely explanation is that 
the absence of senior leadership in the White House or at the 
State Department that is focused on Africa has helped abet at 
making what I think are, quite frankly, rookie mistakes with 
regard to engagement with the continent. And this is why I 
think it is so vital for the administration to move with 
alacrity to appoint senior people at the State Department, in 
the White House, and also at senior ambassadorships across the 
continent.
    Mr. Deutch. I thank you, Ambassador. If you are right and 
we can chock this up to rookie mistakes as we wait for them to 
figure it out, as we wait for these positions to be filled, 
General Ward, what impact does that have from a national 
security standpoint and on U.S. forces?
    General Ward. Congressman, we have to continue to cause our 
presence and our interests to be felt and realized in other 
areas until that day, then, does come. And so therefore we are 
not going to wring our hands, we are going to just reinforce 
our efforts in other areas. For example, next month the U.S.-
Africa Business Summit will be here in DC hosted by the 
Corporate Council on Africa and certain African leaders will be 
in attendance.
    And how support is rallied around to show that in spite of 
whatever else may be going on, there is still support for the 
continent and we do it through those sorts of programs and 
showing support, participating in and endorsing in ways that 
then as they return, based on a relationship that was 
established here, the word will be spread that it is not over 
and we have to just double down on our efforts to cause that to 
be the case.
    Mr. Deutch. I appreciate that. Thanks to all the witnesses 
for being here today.
    Chairman Royce. Would the gentleman yield just on a point?
    Mr. Deutch. Of course.
    Chairman Royce. Because I think we are in concurrence on a 
lot of issues, but I just wanted to address this issue of 
President Paul Kagame, because to bring this up without 
explaining that one of the reasons we did not on this committee 
ask for meetings with President Paul Kagame was because of 
several assassinations of political opponents outside his own 
country in a third country. On top of that we had the problem 
with his suppression of freedom of expression and the human 
rights abuses.
    So once you have situations where you have assassinations, 
admitted assassinations, I think we could argue the point, but 
certainly that point was defended, you could understand why we 
weren't anxious to orchestrate a meeting while he was here in 
the first months of the new administration. So I think 
sometimes disclosing all of the factors in a situation like 
that would be important. That said, I want to thank our 
witnesses here today.
    Mr. Deutch. Mr. Chairman.
    Chairman Royce. Yes.
    Mr. Deutch. Just before I yield back, I appreciate what you 
said. I would just add though that if we have a valid concern, 
if what is driving decisions like that is suppression of 
freedom of expression and concern about human rights, I would 
respectfully suggest that the President of the United States 
had no business meeting and welcoming President Erdogan to the 
White House. But I yield back.
    Chairman Royce. Listen. Yes, I think--and you will see my 
statements on that point as well. But what I am trying to point 
out, I am trying to establish some objectivity when it comes to 
this debate because many of the points that we are raising here 
are points that we need to raise as a committee, but at the 
same time we have to be objective in terms of our choice of 
examples and not mislead.
    And I think it is clear that as we are discussing the 
challenges that we want to see met in Africa, and there are 
many of the challenges that we have discussed here--the fact 
that some governments are kleptocratic in nature, the weak 
institutions that we spoke to, the Islamist extremists that are 
a problem for many governments, the wildlife trafficking and 
the way that that feeds into terror as well as the elimination, 
potentially, of the populations of elephants and certainly of 
the rhinoceros. I mean the very well likelihood that in our 
lifetime the rhinoceros will be an extinguished species if we 
don't turn this around.
    And all of that draws people, if we can get sustainable 
development, draws people to see that magnificent continent and 
it supports the people in that continent, but there are also 
these tremendous opportunities. There is that great resource 
that Africa has which is the people of Africa. And the young 
people that I have had the opportunity to meet over many years 
of travel to the region in which our panel are all too familiar 
with, they want a better future. They want it and I believe 
that they will get it.
    I believe it will help if we can work in a bipartisan way 
here to make sure that they get it. I think the United States 
has a stake in their future. I think supporting the growth of 
healthier, more stable communities in Africa serves our 
diplomatic, our economic, our humanitarian, and our security 
interests.
    I think U.S. engagement can help prevent the spread of 
diseases. One of the issues is Ebola where this crosses borders 
and, frankly, can cross our own border. It can help prevent and 
address insecurity before extremism takes hold on these young 
minds, and it can help open new markets that will create 
opportunities for Americans as well as help communities in 
Africa grow their own way out of poverty.
    So U.S. engagement with Africa is smart and essential, and 
I look forward to working with the administration and my 
colleagues here in Congress to ensure that we get this right.
    And I thank again our panel. We are adjourned.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Material submitted for the record by the Honorable Daniel Donovan, a 
         Representative in Congress from the State of New York


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
